U. S. Department of Agriculture
 Office of Inspector General
      Audit Report


U.S. Department of Agriculture
Alternative Agricultural Research
& Commercialization
Corporation’s Financial Statements
for Fiscal Year 1997




                    Audit Report No.
                    37401-2-FM
                    January 1999
                    UNITED STATES DEPARTMENT OF AGRICULTURE
                            OFFICE OF INSPECTOR GENERAL

                                 Washington D.C. 20250




   DATE:

REPLY TO
ATTN OF:    37401-2-FM

SUBJECT:    Audit of the Alternative Agricultural Research and
            Commercialization Corporation’s (AARCC) Financial
            Statements for Fiscal Year 1997

     TO:    Board of Directors
            AARCC

   THRU:    Robert Armstrong
            Executive Director
            AARCC


This report presents the results of our audit of the U.S. Department of
Agriculture’s AARCC financial statements for the fiscal year ended
September 30, 1997. The report contains our disclaimer of opinion on the
fiscal year 1997 financial statements and the results of our assessment of
AARCC’s internal control structure and compliance with laws and regulations.

In accordance with Departmental Regulation 1720-1, please furnish a reply
within 60 days describing the corrective actions taken or planned and the
timeframes for implementation. Please note that the regulation requires
management decision to be reached on all findings and recommendations within
a maximum of 6 months from report issuance.




ROGER C. VIADERO
Inspector General
                     EXECUTIVE SUMMARY

             U.S. DEPARTMENT OF AGRICULTURE
         ALTERNATIVE AGRICULTURAL RESEARCH AND
            COMMERCIALIZATION CORPORATION’S
                   FINANCIAL STATEMENTS
                    FOR FISCAL YEAR 1997
                AUDIT REPORT NO. 37401-2-FM

                                     The  purpose of our audit was to determine
           PURPOSE                    whether (1) the Alternative Agricultural
                                      Research     and     Commercialization
                                      Corporation’s      (AARCC)     financial
                                      statements present fairly the financial
           position, results of operations, and changes in equity in accordance
           with applicable accounting standards, (2) the internal control
           structure was adequate to provide reasonable assurance that the
           internal control objectives were achieved, (3) the AARCC complied
           with laws and regulations for those transactions and events that
           could have a material effect on the financial statements, and (4)
           the information in the Overview of the Reporting Entity was
           materially consistent with the information in the financial
           statements.

                                     We  are unable to express, and do not
      RESULTS IN BRIEF              express,   an   opinion  on   the   AARCC
                                    financial statements for the year ended
                                    September 30, 1997. This disclaimer of
                                    opinion was significantly impacted by the
         absence of an effective internal control structure, and compounded
         by the lack of reliable financial information on AARCC’s investees.
         As a result of this disclaimer of opinion, departmental and AARCC
         officials, Congress and the public do not know how well or poorly
         AARCC has performed. In addition, departmental officials and the
         Congress’ ability to make informed decisions that are "fact based"
         is substantially hindered when the underlying information that
         provides the basis for decisions is called into question or when
         fundamental information is lacking.

           We noted that the financial management system established by AARCC
           is not sufficiently designed to enable AARCC to either meet current
           accounting standards or provide reliable financial information for
           managing its operations. AARCC officials acknowledged that their
           current financial reporting system is not set up to generate
           financial statements in accordance with generally accepted
           Government accounting standards. The greatest impacts are that the
           Corporation cannot provide reasonable assurance that it can
           (1) properly record and account for transactions which permit the
           preparation of reliable financial statements, (2) maintain




USDA/OIG-A/37401-2-FM                                                   Page i
          appropriate accountability over assets, or (3) properly safeguard
          government funds from loss and/or unauthorized use.

          During our audit, we identified the following material internal
          control weaknesses that impacted the Corporation’s operations.

          •     There is an overall absence of effective procedures to assure
                that investees used AARCC funds as intended.

          •     There is an absence of effective procedures to assure the
                investees contributed required capital, and the contribution
                was properly valued.

          •     There are insufficient and/or ineffective policies and
                procedures over the loan/investment making process, including
                inadequate documentation over:

                ·       lending/investing   decisions   for   new   and   existing
                        investees,

                ·       determining the rate of return on the investment, note,
                        etc., and

                ·       decisions to issue grants for selected operations.

          •     There is substantial lack of adherence to existing critical
                policies and procedures (e.g., obtaining audited financial
                statements from the investees). As a result, AARCC does not
                have reasonable assurance about the financial strengths of its
                investees, whether repayments, etc., are made in compliance
                with terms of each agreement, or whether AARCC funds were used
                as intended.

          •     There is a general lack of policies and procedures for
                performing credit checks, background investigations, and
                obtaining references about the integrity of the investees.
                During fiscal year 1997, AARCC began performing credit checks
                on new investees; however, a documented procedure is needed to
                ensure that credit checks and other background investigations
                are performed on all new and additional lending/investing to
                existing investees.




USDA/OIG-A/37401-2-FM                                                      Page ii
          •     There was a substantial need       for   improvements   in   the
                monitoring of the investees.

          We also noted several instances where AARCC appears to be in
          noncompliance with the Food, Agriculture, Conservation and Trade Act
          (FACT) and Federal Agricultural Improvement and Reform Act of 1996
          (FAIR).   The legislation, among other things, requires that the
          Board of Directors (Board) review and vote on any financial
          assistance to be provided, prohibits AARCC from granting monies for
          commercialization, requires Board members to file annual financial
          disclosures, requires grants to be competitively bid, and requires
          the Board to establish a thorough and effective system of auditing
          and accountability. Our review disclosed that AARCC did not adhere
          to these requirements and as a result:

          ·     Approved at least $360,000 in funding to 10 investees without
                Board vote,

          ·     made grants of over $575,000 to 11 investees for commercial-
                ization of AARCC products,

          ·     did not obtain an annual financial disclosure from a voting
                Board member,

          ·     did not always competitively bid grant awards, and

          ·     did not establish a system to determine whether AARCC funds
                were used as intended.

          We noted that AARCC has not complied with requirements of the Debt
          Collection Improvement Act (DCIA) of 1996. AARCC officials have
          indicated that they believe they have been exempted from the Act
          because they filed an exemption from the Treasury Offset Program
          (TOP) and AARCC does not have "debt" because they make equity
          investments. However, we noted that AARCC has nine loans totaling
          $2.7 million. As a result, AARCC has minimum assurance that it is
          not financing companies that may not be entitled to Government funds
          because they are delinquent to other Federal agencies, and may have
          inappropriately written off a $54,000, including interest, AARCC
          investment.

          AARCC has not published a regulation covering basic policy for
          operation of its program.    A published regulation is needed to
          provide official policy to the public concerning basic program
          objectives, the application process, and basic criteria for
          approving and funding project applications. The regulation should
          also cover any Board approved policy which has a significant impact
          on prospective applicants as specified by the Administrative
          Procedures Act (Public Law 89-554), dated September 6, 1966. AARCC
          referred to Secretary’s Memorandum (SM) 1020-37, dated March 18,
          1992, which exempted AARCC from having to follow Departmental
          Regulations (DR) unless specifically cited.       We believe this
          exemption should be rescinded.

          As a result, AARCC and the Department have reduced assurance that
          taxpayers’ monies have been properly expended and investments
          totaling over $27 million are properly protected.        Since its
          inception in 1992, AARCC has written off investments totaling about
          $1.6 million and there is an additional $2.8 million in investments
          where AARCC officials have indicated writeoff is imminent. These



USDA/OIG-A/37401-2-FM                                                   Page iii
           amounts represent about 16 percent of the investments made since the
           inception of AARCC. Our work, to date, indicates that unless these
           material control weaknesses are corrected, additional losses will
           occur.

                                     Because of significant overall internal
  KEY   RECOMMENDATIONS             control  and  operational weaknesses we
                                    identified during our audit of AARCC
                                    fiscal year 1997 financial statements,
                                    the Board of Directors needs to implement
          prompt corrective actions to include the following:

           ·     Contract with a qualified Certified Public Accountant (CPA)
                 firm to assist in the development of the internal control
                 structure.

           ·     Develop and publish procedures that provide guidelines for
                 loan/investment making and rate of return on AARCC
                 investments.

           ·     Immediately notify and require AARCC investees to provide
                 audited financial statements.

           ·     Document a procedure to perform credit checks and background
                 investigations on all potential and existing investees.

           ·     Modify the agreements to provide for additional assertion,
                 audited by a CPA, when investees do business with related
                 parties.

           ·     Modify existing and new agreements to require quarterly
                 financial and performance reports so that AARCC can
                 effectively monitor the projects and provide timely assistance
                 if/when projections are not being accomplished.

           ·     Request that the Secretary rescind SM 1020-37 which granted
                 the exemption of AARCC from following DRs.

           ·     Request that the Office of the Chief Financial Officer (OCFO)
                 revise its accounting operations at the OCFO/National Finance
                 Center (NFC) to properly record AARCC’s investments.

                                     AARCC  generally agreed with the findings
    AGENCY COMMENTS                  and recommendations.




USDA/OIG-A/37401-2-FM                                                  Page iv
TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1




REPORT OF THE OFFICE OF INSPECTOR GENERAL . . . . . . . . . . . 3



REPORT OF THE OFFICE OF INSPECTOR GENERAL
ON INTERNAL CONTROL STRUCTURE . . . . . . . . . . . . . . . . . . . . . . . . 6


FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . 9

  I.    ADDITIONAL CONTROLS ARE NEEDED AT AARCC . . . . . . . . . . . . . . . . 9

        RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

 II.    FMFIA REPORT SUBMITTED BY AARCC WAS INACCURATE AND
        AARCC IS IN NONCOMPLIANCE WITH FFMIA . . . . . . . . . . . . . . . . . . . . 12

        RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

III.    IMPROVEMENTS ARE NEEDED IN AARCC’S MONITORING EFFORTS . 16

        RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20




USDA/OIG-A/37401-2-FM                                                                            Page v
REPORT OF THE OFFICE OF INSPECTOR GENERAL
ON COMPLIANCE WITH LAWS AND REGULATIONS . . . . . . . . . . . 22

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . 24
IV. NONCOMPLIANCE WITH FACT AND FAIR ACTS . . . . . . . . . . . . . . . . . . . 24

       RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

 V.    NONCOMPLIANCE WITH DCIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

       RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

VI.    NONCOMPLIANCE WITH THE ADMINISTRATIVE PROCEDURES ACT . . 28

       RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2 9


EXHIBIT A: ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31



AARCC FISCAL YEAR 1997 FINANCIAL STATEMENTS
(Prepared by AARCC)


      OVERVIEW OF AARCC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

      STATEMENT OF FINANCIAL POSITION . . . . . . . . . . . . . . . . . . . . . . . . . . 2

       STATEMENT OF OPERATIONS AND
       STATEMENT OF CHANGES IN NET POSITION . . . . . . . . . . . . . . . . . . . . 3

       NOTES TO CONSOLIDATED FINANCIAL STATEMENTS . . . . . . . . . . . . . 4




USDA/OIG-A/37401-2-FM                                                                       Page vi
                         INTRODUCTION


                                    The Alternative Agricultural Research and
        BACKGROUND                  Commercialization   (AARC)   Center   was
                                    established   in   March   1992   as   an
                                    independent entity in the U.S. Department
                                    of Agriculture (USDA). The program was
          authorized by the Food, Agriculture, Conservation and Trade Act of
          1990. The Federal Agricultural Improvement and Reform Act of 1996
          changed the organization from the AARC Center to the AARC
          Corporation, a wholly owned government corporation.

          AARCC was created to expedite the development and market penetration
          of nonfood, nonfeed value added industrial products from
          agricultural and forestry materials and animal by-products.       It
          provides funds to companies and individuals for projects that, if
          successful,   create   jobs,   increase  demand   for   agricultural
          commodities, and enhance economic development in rural areas.
          Applicants are required to show that they have invested significant
          resources in the proposed projects. Matching funds equal to the
          AARCC’s investment must be obtained by the small businesses from
          private sources.

          AARCC is exempt from the Freedom of Information Act, thereby
          protecting the small businesses’ innovations and allowing them to
          retain the proprietary value of their innovations during the
          application and commercialization process.

          An 11 member Board of Directors, appointed by the Secretary of
          Agriculture, establishes policy, evaluates and approves applications
          for AARCC financial assistance, and oversees operations of the
          Corporation.     Eight   members   are   non-Federal,   representing
          commercial, financial, producer, and scientific interests.       The
          Board of Directors appoints an Executive Director, subject to the
          approval of the Secretary.    The Executive Director is the chief
          executive officer of the Corporation and is responsible for the
          overall management and implementation of general policies with
          respect to the management and operation of the programs and
          activities of the Corporation.




USDA/OIG-A/37401-2-FM                                                  Page 1
          AARCC publishes an annual notice in the Federal Register requesting
          proposals for funding. As of September 30, 1997, the Corporation
          had outstanding investments totaling over $27 million for 54
          investees and had granted about $2 million to 27 grantees.




USDA/OIG-A/37401-2-FM                                                 Page 2
                   UNITED STATES DEPARTMENT OF AGRICULTURE
                            OFFICE OF INSPECTOR GENERAL

                                Washington D.C. 20250




        REPORT OF THE OFFICE OF INSPECTOR GENERAL


TO:   Board of Directors
      Alternative Agricultural Research and Commercialization Corporation

We  were engaged to audit the accompanying Statement of Financial Position of
the Alternative Agricultural Research and Commercialization Corporation (AARCC)
as of September 30, 1997, and the related Statement of Operations and Changes in
Net Position for the fiscal year then ended. These financial statements are the
responsibility of AARCC management. We were unable to complete the audit because
of the lack of sufficient, competent evidential matter to support numerous
material line items on the financial statements and the overall lack of a
reliable internal control structure.

The Federal Agriculture Improvement and Reform (FAIR) Act of 1996 established
AARCC as a wholly owned corporation of the U.S. Department of Agriculture. Upon
obtaining Corporate designation, AARCC was required to produce audited financial
statements as required by the Chief Financial Officers (CFO) Act; fiscal year
1997 was the first year that the AARCC’s financial statements were audited.

AARCC officials have acknowledged that their current financial reporting system
was not set up to generate financial statements in accordance with generally
accepted government accounting standards.        Therefore, to assist in the
preparation of its financial statements, AARCC contracted with a CPA firm. Our
audit of the AARCC internal control structure and financial statements disclosed
serious administrative and accounting internal control weaknesses.

We noted insufficient and/or ineffective policies and procedures over the
loan/investment making process including:

·     Financing decisions for new and existing investees,

·     determining the rate of return on the investment,

·     issuing grants for selected operations, and

·     requiring investees to provide a security interest (lien) on the
      machinery, equipment, etc., obtained with AARCC loan funds, where
      appropriate.




USDA/OIG-A/37401-2-FM                                                    Page 3
AARCC uses the Office of the Chief Financial Officer National Finance Center’s
(OCFO/NFC) Central Accounting System (CAS) as its primary financial management
system. This system did not properly account for the types of investments that
AARCC enters into. As a result, the CAS has recorded the AARCC investments
(assets/equity) as expenses since the inception of the entity. In addition,
other control problems discussed in our audit report, where we issued an adverse
opinion on the internal control structure of the OCFO/NFC for fiscal year 1997
(see Audit Report No. 11401-3-FM, "Fiscal Year 1997 National Finance Center
Review of Internal Control Structure," dated March 1998), had a significant
impact on our opinion on AARCC’s financial statements.

Our review disclosed a substantial and serious lack of adherence to policies and
procedures relating to obtaining audited financial statements from AARCC’s
investees.   This critical internal control procedure was ignored by AARCC
officials resulting in serious "information gaps" that caused management to have
reduced assurance that:

·     The investee uses AARCC funds as intended;

·     the investee contributes required capital, or that the contribution is
      properly valued;

·     the investments are properly valued and recorded on AARCC’s financial
      statements;

·     AARCC is receiving the return on its investments, repayment of the note,
      etc., it has earned based on investee operations; and

·     related party transactions are appropriate and adequately disclosed.

Because of these conditions, we were      unable to obtain sufficient, competent,
evidential matter to support whether     "Repayable Cooperative Agreements, Net,"
"Investments, Net," "Notes Receivable,   Net," and the related "Allowance for Loss"
amounts valued at $2 million, $4.6        million, $.6 million and $20 million,
respectively, were reasonably stated.

We were also unable to obtain reasonable assurance that assets and liabilities
at the beginning of the current year and the results of operations during fiscal
year 1997 were free of material misstatement. In addition, because we did not
perform an audit of AARCC’s financial statements for fiscal year 1996, we were
unable to determine whether "Net Position, Beginning Balance" totaling over $5
million was presented fairly.

Since we were not able to apply alternate auditing procedures to satisfy
ourselves as to the value of assets, liabilities, equity, and related revenues
and expenses of AARCC, the scope of our work was insufficient to enable us to
express, and we do not express, an opinion on AARCC’s fiscal year 1997 financial
statements.




USDA/OIG-A/37401-2-FM                                                       Page 4
We have also issued a report on internal controls which includes three reportable
conditions and a report on compliance with laws and regulations which includes
three instances of noncompliance, including material noncompliance with AARCC’s
enabling legislation.



ROGER C. VIADERO
Inspector General

July 31, 1998




USDA/OIG-A/37401-2-FM                                                     Page 5
                   UNITED STATES DEPARTMENT OF AGRICULTURE
                            OFFICE OF INSPECTOR GENERAL

                                 Washington D.C. 20250




        REPORT OF THE OFFICE OF INSPECTOR GENERAL
             ON INTERNAL CONTROL STRUCTURE
TO:   Board of Directors
      Alternative Agricultural Research and Commercialization Corporation

We  were engaged to audit the accompanying financial statements of Alternative
Agricultural Research and Commercialization Corporation (AARCC) for the fiscal
year ended September 30, 1997, and have issued our report thereon, dated July 31,
1998. In planning and performing our audit of the financial statements of AARCC
for the fiscal year ended September 30, 1997, we considered the internal control
structure for the purpose of expressing our opinion on the financial statements
and not to provide assurance on the internal control structure.


    MANAGEMENT’S RESPONSIBILITY FOR INTERNAL CONTROL STRUCTURE



The  management of AARCC is responsible for establishing and maintaining an
internal control structure. In fulfilling this responsibility, estimates and
judgments by management are required to assess the expected benefits and related
costs of internal control structure policies and procedures. The objectives of
an internal control structure are to provide management reasonable, but not
absolute assurance that assets are safeguarded against loss from unauthorized use
or disposition, and that transactions are executed in accordance with
management’s authorization and recorded properly to permit the preparation of
financial statements in accordance with the agency’s prescribed basis of
accounting. Because of inherent limitations in any internal control structure,
errors or irregularities may nevertheless occur and not be detected.        Also,
projection of any evaluation of the structure to future periods is subject to the
risk that procedures may become inadequate because of changes in conditions or
that the effectiveness of the design and operation of policies and procedures may
deteriorate.

In its fiscal year 1997 Federal Managers’ Financial Integrity Act (FMFIA) report,
AARCC reported to the Secretary of Agriculture that it generally complied with
Section 2 (Management Accountability and Control).       These standards require
agencies to report on whether they can provide reasonable assurance that:

·     Obligations and costs are in compliance with applicable laws;

·     funds, property and other assets are safeguarded            against    loss,
      misappropriation, unauthorized use, and waste; and




USDA/OIG-A/37401-2-FM                                                       Page 6
·     revenues and expenditures are properly recorded and accounted for to
      maintain accountability over assets, and permit the preparation of
      accounts and financial reports.

We disagree with AARCC’s conclusion. As noted in this report, we determined that
AARCC neither has the controls to assure that Government funds are expended as
authorized, nor that the Government receives the royalties, to which it is
entitled. AARCC acknowledged that its financial management and/or accounting
systems did not comply with Section 4 of the FMFIA because it was incapable of
preparing financial statements. We concur with that conclusion.
.

      OIG’S EVALUATION OF AARCC’S INTERNAL CONTROL STRUCTURE



For the purpose of this report, we have classified AARCC’s significant internal
control structure policies and procedures into the following categories.

·     Grants - which consists of policies      and   procedures associated   with
      authorizing and disbursing grants.

·     Repayable Cooperative Agreements - which consists of policies and
      procedures   associated   with  authorizing   and   disbursing   payments,
      authorizing guarantees, accruing interest and interest income where
      applicable, collecting repayments including royalties, and determining the
      allowance for loss on investments.

·     Equity Investments - which consists of policies and procedures associated
      with authorizing and disbursing payments, valuing equity investments on an
      annual basis, and collecting royalties, where applicable.

·     Treasury - which consists of policies and procedures associated with
      disbursing and collecting cash, reconciling cash balances, and managing
      debt.

·     Financial Reporting - which consists of policies and procedures associated
      with processing accounting entries and preparing AARCC’s annual financial
      statements.

For each of the internal control structure categories previously listed, we
obtained an understanding of the design of significant policies and procedures
and whether they have been placed in operation. We assessed control risk and
performed tests of AARCC’s internal control structure.    We also obtained an
understanding of relevant internal control structure policies and procedures
designed to determine that data supporting reported performance measures are
properly recorded and accounted for to permit preparation of reliable and
complete performance information. However, our objective was not to provide an
opinion on the performance measures. Accordingly, we do not express such an
opinion.

In making our risk assessment, we considered AARCC’s FMFIA reports as well as our
prior and current audit efforts on financial matters and internal accounting
control policies and procedures. We noted certain matters involving the internal
control structure and its operation that we consider to be reportable conditions
under standards established by the American Institute of Certified Public
Accountants and Office of Management and Budget (OMB) Bulletin 93-06. Reportable




USDA/OIG-A/37401-2-FM                                                     Page 7
conditions involve matters coming to our attention relating to significant
deficiencies in the design or operation of the internal control structure that,
in our judgment, could adversely affect the organization’s ability to have
reasonable assurance that the following objectives are met:

(1)   Transactions are properly recorded and accounted      for to permit the
      preparation   of  reliable  financial statements       and  to  maintain
      accountability over assets;

(2)   funds, property, and other assets are safeguarded against loss from
      unauthorized use or disposition;

(3)   transactions, including those related to obligations and costs, are
      executed in compliance with (a) laws and regulations that could have a
      direct and material effect on the Principal Statements, and (b) any other
      laws and regulations that OMB, AARCC, or we have identified as being
      significant for which compliance can be objectively measured and
      evaluated; and

(4)   data that supports reported performance measures are properly recorded and
      accounted for to permit the preparation of reliable and complete
      performance information.

Matters that we consider to be reportable conditions are presented in the
"Findings and Recommendations" section of this report.




USDA/OIG-A/37401-2-FM                                                    Page 8
            FINDINGS AND RECOMMENDATIONS


                                       The absence of sound and documented
                                       internal control policies and procedures
           FINDING NO. 1               within AARCC has significantly impacted
                                       overall   operations   and  reduced   the
                                       financial strength of the Corporation.
                                       We attributed this problem to the need
Additional Controls Are Needed At for additional management oversight by
AARCC                                  the Board of Directors (Board) and the
                                       Executive Director. As a result of this
                                       and other problems, we were unable to
            form an opinion on whether AARCC’s fiscal year 1997 financial
            statements were free of material misstatements. In addition, AARCC
            and the Department have reduced assurance that taxpayers’ monies
            have been properly expended and investments totaling over $27
            million are properly protected. Since its inception in 1992, AARCC
            has written off investments totaling about $1.6 million and there is
            an additional $2.8 million in investments where AARCC officials have
            indicated writeoff is imminent. These amounts represent about 16
            percent of the investments made since the inception of AARCC. Our
            work, to date, indicates that unless numerous and substantial
            control weaknesses are corrected, additional losses will occur.

            During our audit, we identified the following material internal
            control weaknesses that impacted the Corporation’s operations.

            •     There is an overall absence of effective procedures to assure
                  that investees used AARCC funds as intended.

            •     There is an absence of effective procedures to assure the
                  investees contributed required capital, and the contribution
                  was properly valued.

            •     There are inadequate policies or procedures to assure that the
                  Government’s investment is protected because AARCC does not
                  require the investee to provide a security interest (lien) on
                  the equipment, machinery, etc., obtained with AARCC loan
                  funds.

            •     There are insufficient and/or ineffective policies and
                  procedures over the loan/investment making process, including
                  inadequate documentation over:

                  ·     Lending/investing   decisions   for   new   and   existing
                        investees,

                  ·     determining the rate of return on the investment, note,
                        etc., and

                  ·     decisions to issue grants for selected operations.



USDA/OIG-A/37401-2-FM                                                      Page 9
            •     There is substantial lack of adherence to existing critical
                  policies and procedures (e.g., obtaining audited financial
                  statements from the investees). As a result, AARCC does not
                  have reasonable assurance about the financial strengths of its
                  investees, whether repayments, etc., are made in compliance
                  with terms of each agreement, or whether AARCC funds were used
                  as intended.

            •     There is a general lack of policies and procedures for
                  performing credit checks, background investigations, and
                  obtaining references about the integrity of the investees.
                  During fiscal year 1997, AARCC began performing credit checks
                  on new investees; however, a documented procedure is needed to
                  ensure that credit checks and other background investigations
                  are performed on all new and additional lending/investing to
                  existing investees.

            •     There is a need for substantial improvements in the monitoring
                  of the investees. For example:

                  ·     Our review of available investee financial information
                        disclosed that many of the companies receiving AARCC
                        funding   do   business  with   affiliate   companies.
                        (Transactions between affiliated companies constitute
                        related party transactions and appropriate disclosure
                        should be made. This would include the nature of the
                        relationship, a description of the transactions
                        including dollar amounts, amounts due to and from
                        related parties and terms and manner of settlement.)
                        However, there is no assurance that these transactions
                        are adequately disclosed to AARCC by investees.

                  ·     We noted that AARCC generally received unaudited
                        financial information about investee operations on an
                        annual basis. We believe that quarterly data should be
                        required in order for AARCC to better monitor the
                        investees’ financial operations.     This would enable
                        AARCC to provide additional oversight to investees when
                        financial indicators note potential problems such as
                        meeting sales goals, production timeframes, etc.


            Overall, AARCC has not adequately documented its internal control
            objectives and techniques in an integrated framework to ensure that
            management’s overall goals are achieved consistently and uniformly.
            Additionally, AARCC has no formalized documented accounting
            procedures.   Given the complexity of the agency’s operations,
            documented controls for each activity would assist in providing
            additional assurance concerning the effectiveness of operations,
            reliability of financial information, and compliance with laws and
            regulations.

            We noted in an inspection report on Small Business Investment
            Company (SBIC) Best Practices 1 that the following characteristics


     1
      "Inspection of SBIC Best Practices," dated August 1994, Report No. 94-08-
002, Office of Inspector General, U. S. Small Business Administration.



USDA/OIG-A/37401-2-FM                                                   Page 10
          mark financially successful investment firms and were generally
          lacking in AARCC’s operations and/or needed improvement.

          ·     Financially successful SBIC’s use a systematic approach to
                identify, evaluate, and structure deals; closely monitor the
                financial health of their portfolios through regular reviews
                of the companies’ financial and operational records; and
                rigorously follow up on late payments.

          ·     SBIC’s using loan financing use a rigorous loan approval
                process to assure creditworthiness.

          ·     The profitable SBIC’s have explicit strategies and adhere
                closely to them to minimize risk.

          ·     Successful SBIC’s use a systematic process for evaluating
                investment opportunities. Detailed analyses focusing on the
                company’s management, business plan, financial records are
                performed. Potential for growth is the primary consideration
                in equity financing and ability to repay is foremost in debt
                financing.

          ·     Reference checks are conducted with suppliers, customers, and
                industry contacts to assess the integrity and reliability of
                the company’s management.    Credit checks are performed to
                assess payment history and legal reviews are conducted to
                determine such matters as patent rights.

          ·     Most SBIC’s perform at least one of the following, (1) conduct
                site visits and meet regularly with management, (2) review
                monthly financial statements, annual business plans, and
                annual audits, and (3) perform quarterly valuations of the
                portfolio concerns. In addition, when a company experiences
                problems, the    monitoring    efforts   are   accelerated by
                (1) requiring weekly reports and/or meetings, (2) encouraging
                more frequent meetings of the company’s board of directors,
                and (3) in some cases, requiring daily meetings.



      RECOMMENDATIONS


          1a.   Contract with a national CPA firm to assist in the development
                of an internal control structure for AARCC’s administrative
                and accounting operations.

          1b.   Develop procedures to require credit checks and other
                background investigations on new and existing investees
                seeking financial assistance, including;

                ·       reference checks with suppliers, customers, and industry
                        contacts to assess the integrity and reliability of the
                        company’s management, and

                ·       legal reviews to determine the adequacy of such matters
                        as patent rights, trade secrets, etc.




USDA/OIG-A/37401-2-FM                                                   Page 11
            1c.   Modify the agreements to provide for additional assertion,
                  audited by a CPA, when investees do business with related
                  parties.

            1d.   Modify the investment agreement to require quarterly financial
                  and performance reports so that AARCC can effectively monitor
                  the projects and provide timely assistance if/when projections
                  are not being accomplished.

            1e.   Develop periodic financial management ratios that need to be
                  reported, monitored, and routinely analyzed for investees.

            1f.   Develop a checklist requiring documentation of the analyses
                  performed for recommendation 1e.

                                      AARCC reported, for fiscal year 1997,
                                      that    its     system    of    internal
          FINDING NO. 2               administrative and accounting controls
                                      complied with the standards prescribed by
                                      the Comptroller General. These standards
                                      require that agencies report on whether
FMFIA Report Submitted By AARCC       they can provide reasonable assurance
Was Inaccurate And AARCC Is           that:
In Noncompliance With FFMIA

            ·     Obligations and costs are in compliance with applicable laws.

            ·     Funds, property, and other assets are safeguarded against
                  loss, misappropriation, unauthorized use, and waste.

            ·     Revenues and expenditures are properly recorded and accounted
                  for to maintain accountability over assets, and permit the
                  preparation of accounts and financial reports.

            We disagree with AARCC’s conclusion. We believe that AARCC needs to
            substantially strengthen its administrative and accounting internal
            control procedures. Based upon our audit, we concluded that AARCC
            neither has the controls to assure that Government funds are
            expended as authorized, nor that the Government received the
            royalties, repayments, etc., to which it is entitled. Because of a
            failure to enforce contract agreements that investees provide annual
            audited financial statements, AARCC does not receive data critical
            to properly safeguarding the Government’s investments.        In our
            opinion, this problem, coupled with substantial and numerous other
            internal control weaknesses, prevents AARCC officials from providing
            reasonable assurance that investments made, totaling over $27
            million, are safeguarded from loss, misappropriation, unauthorized
            use, or waste.

            Overall, AARCC (as noted in Finding No. 1) has not established
            appropriate internal control procedures and regulations to ensure
            that:

            ·     Funding provided to its investees is used for the purposes
                  agreed upon,




USDA/OIG-A/37401-2-FM                                                   Page 12
            ·     investees and other investors have contributed the required
                  and properly valued matching funds, and

            ·     investees have accurately represented their financial strength
                  and other key financial interests.

            The AARCC investment agreement 2 provides that no part of the funds
            made available shall be expended for the acquisition or construction
            of a building or facility, the travel of AARCC employees, or for
            lobbying activities.    The agreement also established additional
            unallowable and allowable costs as outlined in Title 48, Code of
            Federal Regulations, Part 31.2, "Federal Cost Principles." AARCC
            also requires a form entitled, "Budget Breakdown by Tasks and
            Organizations" that breaks out the use and source of funding. The
            investee is expected to adhere to this schedule and notify AARCC of
            changes greater than 10 percent. Details follow:

            ·     We noted in a prior audit (Audit Report No. 34099-1-At,
                  "Alternative Agricultural Research and Commercialization -
                  Agro-Fibers, Inc.),    that one investee represented that it
                  would provide $3.2 million as its capital contribution
                  purportedly    composed    of   intellectual    property   and
                  manufacturing facility assets. We noted that the investees’
                  accounting records did not support any values for intellectual
                  property (e.g., intangible assets, patents, trademarks) and
                  the facility assets were funded entirely with debt.        The
                  investees’ records only supported $100 available for its
                  capital contribution. The agreement also provided that over
                  $355,000 of AARCC funds would be used to purchase equipment.
                  However, other funds were used to purchase that equipment and
                  that lender was provided a security interest in the equipment.
                  The AARCC funds were used for general operations.

            ·     We also noted where investees do substantial business with
                  parent and subsidiary companies and other related parties.
                  However, there are no assurances that these transactions are
                  on an "arm’s-length basis."      AARCC has not established
                  policies and procedures to address this issue. We have noted
                  in our audits of other USDA programs that effective controls
                  are needed to preclude fraud and abuse in this highly
                  vulnerable area.

            Our analysis of AARCC policies and procedures disclosed that it has
            no policy that requires the investee to provide a security interest
            (lien) on those assets purchased with AARCC loan funds. We noted
            that AARCC has entered into nine lending agreements totaling
            $2.7 million and had received a security interest in only one of the
            loans which consisted of preferred stock which had been placed in
            escrow. We reviewed 11 other USDA lending programs and noted that
            all 11 require adequate security to be provided to protect the
            Government’s interest.


     2
        Our review noted that the standard AARCC agreement was adopted from the
Cooperative State Research Education, & Extension Service (CSREES) and does not
directly relate to AARCC financings in many areas.      For example, the CSREES
cooperative agreement relates to nonreimbursable research grants to primarily
nonprofit entities and universities while the AARCC agreement relates to venture
capital and repayable cooperative agreements.



USDA/OIG-A/37401-2-FM                                                   Page 13
          AARCC does not enforce its investees to submit audited financial
          statements as required by the venture capital, cooperative repayable
          and other agreements signed by AARCC and the investees.        AARCC
          management indicated that requiring audited statements would be
          "cost prohibitive" to the investee. As a result, investments cannot
          be recorded to reflect their true value, it is not known whether
          royalties, repayments, and other returns on the investments are
          correct, or whether the investees are properly using AARCC funds.

          Of the 54 AARCC agreements, in effect as of September 30, 1997, 52
          required annual financial statements, one agreement was modified
          through "negotiation" to only require a "review," and another was
          modified through "negotiation" to only require a "compilation" of
          the financial data. Our analysis of AARCC’s records showed that
          most investees ignored the requirement and did not ever submit
          annual financial statement audits. There were no actions taken by
          AARCC officials to follow up or take remedial actions to obtain the
          reports.   For example, only six, seven, and three audits were
          submitted for fiscal years 1995, 1996, and 1997, respectively, for
          the 52 investments. We believe that this is a serious breach of the
          Board’s and corporate officials’ fiduciary responsibilities.

          Forty-one of AARCC’s agreements provide for repayments or royalty
          payments to be made based on percentage of sales. Without audited
          statements, AARCC does not have reasonable assurance that investees
          are paying according to the terms of the agreement. In addition, in
          order to properly value its portfolios, reliable data on the
          financial condition of all the investees is needed.

          Our analysis of the investment agreements also disclosed that the
          investees’ audits are not required to be conducted in accordance
          with generally accepted Government auditing standards (GAGAS).
          GAGAS audits are required by the Inspector General Act of 1978, as
          amended, and should be performed by non-Federal auditors when they
          audit Federal organizations, programs, activities, and functions.
          A GAGAS audit would provide AARCC officials with reasonable
          assurance that the investee has properly protected AARCC’s interest
          in the company, properly reported its operations, appropriately
          calculated and remitted any royalties based on accurate sales or
          other returns on investments. The GAGAS audit would also provide
          valuable information to AARCC that the investee has established a
          reliable internal control structure and has complied with agreements
          and commitments made to AARCC.

          Our review also disclosed that AARCC is in substantial noncompliance
          with the three requirements of the Federal Financial Management
          Improvement Act (FFMIA). Under the FFMIA, we are required to report
          whether AARCC’s financial management systems substantially comply
          with Federal financial management systems requirements, Federal
          accounting standards and the U.S. Government Standard General Ledger
          (SGL) at the transaction level.




USDA/OIG-A/37401-2-FM                                                 Page 14
      RECOMMENDATIONS


          2a.   Report that AARCC is unable to provide reasonable assurance
                that it complies with Sections 2 and 4 of the FMFIA.

          2b.   Establish and publish rules to require investees to provide
                security interests (liens) on property financed with AARCC
                loan funds.

          2c.   Notify and enforce requirements that the investees submit
                audited annual financial statements.

          2d.   Modify the AARCC investment agreement so that it more directly
                applies to AARCC operations and assures adequate controls are
                in place to protect the Government’s funds.

          2e.   Revise the current agreement to provide appropriate penalties
                if investees fail to adhere to their agreements.

          2f.   Modify the investment agreements to require that the audits be
                conducted in accordance with GAGAS.

          2g.   Develop a compliance checklist to standardize the necessary
                tests that the CPA needs to perform to provide assurance that
                investees are in compliance with appropriate laws and
                regulations, including repayments to AARCC and investees
                contribution requirements.

          2h.   Develop a tracking system to monitor the receipt of audited
                financial statements.

          2i.   Contract with appropriate financial and industry experts to
                assist in analyses of the audits, financial and performance
                reports submitted by investees.

          2j.   Report noncompliance with the FFMIA and develop a remediation
                plan that includes the resources, remedies, and intermediate
                target dates necessary to bring the agency’s financial
                management systems into substantial compliance.

          2k.   Request that the OCFO revise its accounting operations at the
                OCFO/NFC to properly record AARCC’s investments in accordance
                with Federal financial management systems requirements,
                Federal accounting standards, and the SGL.




USDA/OIG-A/37401-2-FM                                                 Page 15
                                       The decisions and processes followed by
                                       AARCC in determining whether to make an
           FINDING NO. 3               investment (known as "due diligence"),
                                       and what the repayment (rate of return,
                                       etc.)   will    be   needs    substantial
                                       improvements, both in actions taken and
Improvements Are Needed in AARCC’s documentation of the actions.              We
Monitoring Efforts                     attributed this problem to the absence of
                                       a documented internal control structure
                                       and the need for additional oversight by
            the Board and Executive Director. Because of these problems, there
            is little support for decisions made to provide initial or
            additional funds to companies, or the processes used to arrive at an
            appropriate rate of return. For example, in making its selections,
            the Board is to consider, by law, the following:

            ·     Whether or not the proposed project is likely to succeed?

            ·     What economic activities will be stimulated?

            ·     What type of jobs will result, and the impact of those jobs on
                  the rural community?

            ·     How much "value-added" will accrue to the raw materials?

            ·     What is the potential for the project to develop a new
                  industry?

            We noted that while the application process requires that this
            information be reported, there was a general absence of
            documentation indicating how AARCC officials used the information
            during the decision making process. We believe guidelines should be
            developed to rank the applicants to ensure that the most meritorious
            projects receive AARCC assistance. This process would also provide
            documentation supporting AARCC’s decisions for rejecting projects.




USDA/OIG-A/37401-2-FM                                                   Page 16
          The following chart, taken from June 1994 draft procedures,
          illustrates the review process AARCC should follow in selecting
          projects for funding.




          Our review of 35 investments made under these draft procedures
          disclosed the following:




USDA/OIG-A/37401-2-FM                                            Page 17
          ·     There were 10 instances where the results of the site visit
                were not documented. Documentation is needed to address any
                concerns, prospects, problems, viability, benefits or "down"
                aspects of the project, etc.

          ·     There were 11   instances where      the   Board votes   were   not
                documented.

          ·     There were 11 instances where the independent reviewers
                recommended rejecting the investment and the project was
                approved for funding.    These 11 investments received AARCC
                funding totaling about $10.8 million. Some of the reasons for
                recommending rejection included, insufficient information,
                lack of sound technology; and the product appeared to have
                already been "commercialized" and was outside of AARCC’s
                charter.

          ·     There were 10 instances where not all of the three independent
                reviews were performed. Two of these 10 investments are no
                longer viable projects and AARCC has recognized losses
                totaling $690,000.

          AARCC recognized the need to improve its   "due diligence" operations
          and on November 6, 1996, established       a separate Due Diligence
          Committee (Committee).    The Committee    is made up of four Board
          members from the private sector and the    AARCC Executive Director.

          The Committee adopted the following additional         procedures     for
          receiving and evaluating applications:

          ·     Within 14 days of receiving a "pre-proposal" application, the
                Committee will determine whether a full proposal is warranted
                and/or additional information is needed.

          ·     When received, the full proposal will be forwarded to three
                independent expert reviewers to analyze the technical,
                business, and general merits of the project. The technical
                evaluation addresses whether the technical claims are
                achievable, defined, and whether there are regulatory
                obstacles to overcome. The business evaluation looks at the
                adequacy of the business plan, potential market share that
                could   be  expected,   and  likely   competition.     These
                reviewersprovide feedback on the project’s overall strengths
                and weaknesses and recommendations on whether to proceed,
                gather additional information and/or reject the request for
                funding.

          ·     If the project demonstrates merit, (e.g., obtains approval
                from the reviewers, demonstrates job creation in rural areas,
                promotes nonfood, nonfeed use of agricultural products, etc.)
                the Committee will perform a site visit. During this visit,
                AARCC representative(s) meet with management, visually inspect
                facilities, and obtain additional information, if necessary,
                etc.

          ·     Following the visit, the Committee            will   present    its
                recommendation to the Board for a vote.




USDA/OIG-A/37401-2-FM                                                     Page 18
          We reviewed the due diligence activities performed on the four
          investments receiving fiscal year 1997 funding that were submitted
          after the due diligence committee was established. Our review found
          continued inconsistent application and documentation of the due
          diligence process. Details follow:

          ·     There was no documentation to support why 3 of the 4 projects
                received more funds than requested.

          ·     Independent reviews were not always performed on the full
                proposals as follows: a technical review was not performed for
                3 of the 4; a business review was not performed for 2 of the
                4; and a general review was not performed for 3 of the 4
                proposals.

          ·     Funding was approved for one of the projects even though the
                business and general reviewers both recommended that the
                project should be rejected.

          ·     The results of the site visits were not documented for two of
                the four projects visited.

          ·     The Board voted to fund one of the projects         after   the
                agreement was signed by the Executive Director.

          We were advised by AARCC officials that it is not necessary to
          perform a "due diligence" review for funds provided companies with
          existing AARCC investments.     We disagree with this position.
          AARCC’s portfolio as of September 30, 1997, consisted of about
          $18 million in "initial investments," and about $11 million in
          additional investments to existing investees (about 39 percent of
          all funding).

          AARCC has broad authority to provide assistance to agricultural
          research, development and commercialization of nonfood, nonfeed
          uses of agricultural and forestry products. It can accomplish this
          through the use of grants, cooperative agreements, contracts, loans,
          interest subsidy payments and investments in venture capital
          agreements. As a result, AARCC has entered into a wide range of
          terms with its clients.




USDA/OIG-A/37401-2-FM                                                 Page 19
          AARCC officials have advised us that it "needs to be able to
          negotiate without restraint," as long as the agreement is in the
          best interest of the Government. However, we have noted that these
          negotiations are frequently not documented, and we were unable to
          find support for the processes/procedures followed to determine what
          the rate of return should be, the total return to be obtained or
          what factors influenced the decision.

          For example, we noted where royalty repayments ranged from 10
          percent of gross sales for one investment to 1.25 percent of gross
          sales for another investment.      We also noted where the risk
          investment charge (interest plus a factor for the risk of the
          investment) ranged from 0 percent for one investment to 15 percent
          for a different investment.    While these repayment terms may be
          appropriate considering the risk associated with the individual
          projects, there was inadequate documentation to support the
          variances. We also noted inadequate documentation for deciding on
          whether to make equity investments, lending agreements, or grants.

          We also noted that many of the repayable cooperative agreements were
          structured to require repayments based on a contingent future event
          such as success of the project, threshold of sales, profits, etc.
          Generally, these agreements do not require that repayment be made if
          the project is not successful or never goes to market. Given the
          weaknesses in AARCC’s monitoring efforts, we question if this type
          of agreement is in the best interest of the Government.

          We believe that there is a need for substantial and appropriate
          documentation to support the decisions made by the AARCC, including
          the analyses of the legislative selection criteria.         Without
          documentation to support why specific royalties, rates of return,
          etc., are agreed upon (based on risk, size of investment, and other
          monetary matters) questions can be created regarding these critical
          decisions.



    RECOMMENDATION


          3a.   Supplement existing due diligence by requiring a comprehensive
                business plan from the investee which requires, at a minimum,
                current financial condition, proforma income statements for
                the period of the venture (or not less than 5 years), and
                validated marketing data (to include identification of
                prospective clients), as well as other necessary and critical
                information.




USDA/OIG-A/37401-2-FM                                                 Page 20
            3b.     Follow established due diligence procedures for all new and
                    existing investees seeking additional funding and document the
                    actions taken.

            3c.     Document reasons and obtain full Board concurrence when
                    independent reviewer’s recommendations are not followed.

            3d.     Document reasons and obtain Board approval when increasing
                    amounts awarded to investees from original proposal and obtain
                    additional independent reviews if increases were made
                    subsequent to the last reviews.

            3e.     Develop and publish operational procedures in the Federal
                    Register that provide guidelines for when and what type of
                    investments will be made and for establishing the rate of
                    return on AARCC investments, etc., using quantifiable
                    parameters in relationship to risks and benefits.

            3f.     Develop a "model" (to include such things as risk, potential
                    benefits, number of new jobs created, etc.) to determine which
                    type of investment and rate of return is in the best interest
                    of the Government.

            3g.     Establish criteria to rank each investment against specific
                    legislative and regulatory criteria and among each other prior
                    to approving investments.

A material weakness is a reportable condition in which the design or operation
of the specific internal control structure element does not reduce to a
relatively low level the risk that errors or irregularities, in amounts that
would be material in relation to the financial statements being audited, may
occur and not be detected within a timely period by employees in the normal
course of performing their assigned functions.

Our consideration of the internal control structure would not necessarily
disclose all matters in the internal control structure that might be reportable
conditions and, accordingly, would not necessarily disclose all reportable
conditions that are considered to be material weaknesses as defined above. We
believe the reportable conditions described in Findings Nos. 1, 2 and 3 are
material weaknesses.




ROGER C. VIADERO
Inspector General

July 31, 1998




USDA/OIG-A/37401-2-FM                                                     Page 21
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                            OFFICE OF INSPECTOR GENERAL

                                Washington D.C. 20250




        REPORT OF THE OFFICE OF INSPECTOR GENERAL
        ON COMPLIANCE WITH LAWS AND REGULATIONS



TO:   Board of Directors
      Alternative Agricultural Research and Commercialization Corporation

We  were engaged to audit the financial statements of AARCC for the fiscal year
ended September 30, 1997, and have issued our report thereon, dated July 31,
1998.

The management of the AARCC is responsible for compliance with laws and
regulations applicable to the Corporation. As part of obtaining reasonable
assurance about whether the financial statements are free of material
misstatement, we performed tests of AARCC’s compliance with certain provisions
of laws and regulations that may directly affect the financial statements and
certain other laws and regulations designated significant by OMB or the
Department. We tested compliance with the:

·     Antideficiency Act;
·     Budget and Accounting Procedures Act;
·     Chief Financial Officers (CFO) Act;
·     Debt Collection Improvement Act (DCIA);
·     Federal Financial Management Improvement Act (FFMIA);
·     Federal Managers’ Financial Integrity Act (FMFIA);
·     Government Performance and Results Act (GPRA);
·     Federal Agricultural Improvement and Reform (FAIR) Act; and
·     Food, Agriculture, Conservation, and Trade (FACT) Act.

As part of the audit, we reviewed management’s process for evaluating and
reporting on internal control and accounting systems, as required by the FMFIA,
and compared the agency’s most recent FMFIA reports with the evaluation we
conducted of AARCC’s internal control structure. We also reviewed and tested
policies, procedures, and systems for documenting and supporting financial,
statistical, and other information presented in the overview of the reporting
entity and supplemental financial and management information.     However, our
objective was not to provide an opinion on overall compliance with such
provisions. Accordingly, we do not express such an opinion.




USDA/OIG-A/37401-2-FM                                                  Page 22
Under FFMIA, we are required to report whether AARCC’s financial management
systems substantially comply with Federal Financial Management Systems
Requirements (FFMRS), applicable accounting standards, and the U.S. Standard
General Ledger at the transaction level. To meet this requirement, we performed
tests of compliance using the implementation guidance issued for FFMIA by OMB on
September 9, 1997. The results of our tests disclosed instances described in
Finding No. 2 of the our Report on Internal Control Structure where the agency’s
financial management systems, as a whole, did not substantially comply with the
three requirements.

Material instances of noncompliance are failures to follow requirements, or
violations of prohibitions, contained in law or regulations that cause us to
conclude that the aggregation of the misstatements resulting from those failures
or violations is material to the financial statements, or the sensitivity of the
matter would cause it to be perceived as significant by others.         Material
instances of noncompliance noted during our audit are presented in the "Findings
and Recommendations" section of this report.




USDA/OIG-A/37401-2-FM                                                   Page 23
            FINDINGS AND RECOMMENDATIONS


                                      We   noted several instances where AARCC
                                      appears to be in noncompliance with the
           FINDING NO. 4              FACT and FAIR Acts.     The legislation,
                                      among other things, requires that the
                                      Board review and vote on any financial
                                      assistance to be provided, prohibits
Noncompliance With FACT and FAIR Acts AARCC    from   providing    grants   for
                                      commercialization,       requires   Board
            members to file annual financial disclosures, requires grants to be
            competitively bid, and requires the Board to establish a thorough
            and effective system of auditing and accountability. Our review
            disclosed that AARCC did not adhere to these requirements and as a
            result:

            ·     Approved at least $360,000 in funding to 10 investees without
                  Board vote,

            ·     made   grants  of   over  $575,000   to   11   investees   for
                  commercialization of AARCC products,

            ·     did not obtain an annual financial disclosure from a voting
                  Board member,

            ·     did not always competitively bid grant awards, and

            ·     did not establish a system to determine whether AARCC funds
                  were used as intended.

            Section 1659 of the FACT and FAIR Acts states that the Board shall
            review any grant, contract, cooperative agreement and financial
            assistance to be made or entered into by AARCC and shall make the
            final decision, by majority vote, on whether and how to provide
            assistance to an applicant.     The Act further states that this
            approval authority may not be delegated. Section 1659 of the FAIR
            Act further requires that the Board members submit annual financial
            disclosure forms to assist in precluding the members from voting on
            projects where there is a conflict of interest or the appearance
            thereof.

            Section 1660, "Research and Development Grants, Contracts, and
            Agreements," states that grants made, and contracts and cooperative
            agreements entered into shall be selected on a competitive basis on
            the recommendation of a peer review system.




USDA/OIG-A/37401-2-FM                                                  Page 24
            Section 1661, "Commercialization Assistance," states that AARCC may
            provide financial assistance for commercializing new nonfood,
            nonfeed products in the form of loans, interest subsidy payments,
            venture capital investments, and repayable grants. 3

            Section 1662 states that the Board shall establish a thorough and
            effective system of auditing and accountability to ensure that funds
            paid under Sections 1660 and 1661 are used by recipients only for
            the purposes for which those funds are provided by AARCC.

            The conditions noted follow:

            •     During fiscal year 1993, the AARCC Board improperly gave the
                  AARCC staff authority to invest in small projects without full
                  Board involvement.     This authority gives the Executive
                  Director "signature authority" to make grants and/or
                  investments of up to $50,000 subject to approval of AARCC’s
                  Due Diligence Committee. The FAIR Act states, however, that
                  the Board does not have the authority to delegate approval for
                  funding, and the Due Diligence Committee is comprised of four
                  Board members which does not represent a quorum and/or
                  majority vote by Board members. We noted that during the time
                  period June 1997 through April 1998, the Executive Director
                  has approved, under     his "signature authority," at least
                  10 investments totaling $360,000.

            •     The FACT and FAIR Acts distinguish between research and
                  development projects which are eligible for grants and
                  nonrepayable cooperative agreements, and commercialization
                  projects which are not eligible for this type of assistance.
                  We noted that AARCC did not distinguish between research and
                  development or commercialization projects as categorized in
                  the Acts prior to making the investment.      As a result, we
                  noted that as of September 30, 1997, AARCC has awarded grants
                  for commercialization to at least 11 recipients totaling about
                  $575,000, where no repayment was required, and appears to be
                  improper.

            •     AARCC established a policy that Board members, failing to file
                  an annual confidential financial disclosure form, would
                  refrain from voting on Board business. During the audit, we
                  noted that a Board member had not filed a financial disclosure
                  form during fiscal years 1997 and 1998; however, he continued
                  to participate in Board votes. This Board member filed the
                  required form on July 30, 1998, after we brought the matter to
                  the attention of the Executive Director.

            •     We also noted a general lack of documentation that grants were
                  competitively bid and, as discussed throughout the report on
                  the internal control structure, AARCC has not established a
                  system to ensure its funds are used for only approved
                  purposes.




     3
        This section does not list grants and/or nonrepayable agreements as an
approved type of financing.



USDA/OIG-A/37401-2-FM                                                   Page 25
       RECOMMENDATIONS



           4a.   Rescind the Executive Director’s approval authority and
                 develop procedures to ensure that all approval for funding is
                 based on a majority vote of the Board.

           4b.   Discontinue   the   granting    of   funds   for   commercialization
                 projects.

           4c.   Develop procedures to ensure that all funding granted under
                 Section 1660 of the FACT and FAIR Acts are competitively
                 awarded.

           4d.   Enforce the policy for all Board members to have confidential
                 financial disclosure forms on file, annually, prior to voting
                 on Board business.

           4e.   Obtain Comptroller General opinions on the actions that need
                 to be taken if the grants made for commercialization, and
                 without competitive award, are improper, as well as
                 investments made without Board approval.


                                       We  noted that AARCC has not complied
                                      with requirements of the DCIA of 1996.
           FINDING NO. 5              AARCC officials have indicated that they
                                      believe they have been exempted from the
                                      Act because they filed an exemption from
                                      the TOP and AARCC does not have "debt"
Noncompliance With DCIA               because they make equity investments. As
                                      a result, AARCC has minimum assurance
                                      that it is not financing companies
            that may not be entitled to Government funds because they are
            delinquent to other Federal agencies, and may have inappropriately
            written off a $54,000, including interest, AARCC investment.

           The seven purposes of the DCIA include:

           ·     Maximizing collections     of    delinquent    debts   owed   to   the
                 Government.

           ·     Minimizing the costs of debt collection.

           ·     Reducing losses arising from debt management activities by
                 requiring proper screening of potential borrowers, aggressive
                 monitoring of accounts, and sharing of information within and
                 among Federal agencies.

           ·     Ensuring that the public is informed of                the Federal
                 Government’s debt collection policies and              debtors are
                 cognizant of their obligations to repay.




USDA/OIG-A/37401-2-FM                                                          Page 26
          ·     Ensuring that debtors have all appropriate due process rights.

          ·     Encouraging  agencies    to   sell   delinquent   debt,   when
                appropriate.

          ·     Relying on the experience and expertise of private sector
                professionals to provide debt collection services.

          The Act further provides that agencies report to the Secretary of
          Treasury, disclosing amounts of loans and accounts receivable owed
          the agency and when amounts owed the agency are due to be repaid.

          AARCC has not implemented the requirements of the DCIA and has not
          submitted the following additional information required in the
          Treasury Financial Management Schedule 9 "Report of Receivables due
          from the Public:"

          ·     The total amount of receivables and number of claims at least
                30 days past due;


          ·     the total amount written off as actually uncollectible and the
                total amount allowed for uncollectible loans and accounts
                receivable;

          ·     the rate of interest charged for overdue debts and the amount
                of interest charged and collected on debts;

          ·     the total number of claims and the total amount collected;

          ·     the total number and total amount of claims referred to the
                Attorney General for settlement and the number and total
                amount of claims the Attorney General settles; and

          ·     other information the Secretary considers necessary to decide
                whether the head of the agency is acting aggressively to
                collect the claims of the agency.

          The DCIA defines "debt" synonymously with "claim" as any amount of
          funds or property that an appropriate official of the Federal
          Government has determined is owed to the Government.      A debt or
          receivable is created when a responsible Federal official determines
          that the amount is owed.

          AARCC indicated that it makes equity investments which may not be
          considered to be debt. Regardless, we noted that AARCC also has
          nine loans, with a total outstanding balance of approximately
          $2.7 million, which are subject to DCIA requirements and reporting.

          As of September 30, 1997, AARCC had written off $1.6 million of its
          investment portfolio. We believe that AARCC needs to pursue a legal
          opinion to determine whether the Federal Claim Collection Standards
          apply to these writeoffs, and if so, pursue appropriate collection
          of the outstanding amounts. AARCC also needs to establish policies
          and procedures for determining when its investments constitute debt
          and become subject to debt collection legislation.




USDA/OIG-A/37401-2-FM                                                 Page 27
       RECOMMENDATIONS



            5a.   Implement procedures to begin compliance with the DCIA,
                  including the preparation of Schedule 9, "Report of
                  Receivables due from the Public," and submit the report to the
                  Secretary of Treasury on an annual basis.

            5b.   Obtain an OGC legal opinion regarding the extent that DCIA and
                  Federal Claim Collection Standards apply to AARCC investments
                  and establish appropriate policies and procedures for
                  implementing the requirements.

                                       AARCC has not published a regulation
                                       covering basic policy for operation of
           FINDING NO. 6               its program. A published regulation is
                                       needed to provide official policy to the
                                       public    concerning     basic    program
                                       objectives, the application process, and
Noncompliance With The                 basic criteria for approving and funding
Administrative Procedures Act          project applications. The regulation
                                       should also cover any Board approved
                                       policy which has a significant impact on
            prospective applicants as specified by the Administrative Procedures
            Act, (Public Law 89-554) dated September 6, 1966.

            AARCC has referred to Secretary’s Memorandum (SM) 1020-37, dated
            March 18, 1992, which exempts AARCC from having to follow
            Departmental Regulations (DR) unless specifically cited. However,
            this memorandum does not exempt AARCC from compliance with Federal
            law such as the Administrative Procedures Act of 1966 and other Acts
            and the United States Code.

            We believe this exemption from following DR’s should be rescinded
            because:

            ·     DR’s are often implementing guidance for Federal laws and
                  often provide supplemental information on how to appropriately
                  comply with requirements.     For example, implementing the
                  following DR’s would help AARCC establish corrective action
                  for some of the conditions noted in this report (this list is
                  not all inclusive).

                  DR No. 1110-2,    "Internal/Management Controls"
                  DR No. 1512-1,    "USDA Regulatory Decisionmaking
                                     Requirements"
                  DR No. 1720-1,    "Audit Followup, Management Decisions, and
                                     Final Actions"

            ·     In addition, other USDA corporations have voluntarily adopted
                  regulations to improve their internal control structure.




USDA/OIG-A/37401-2-FM                                                   Page 28
       RECOMMENDATION




          6a.   Request the Secretary to rescind SM 1020-37 which exempts
                AARCC from having to follow DRs unless specifically cited.




USDA/OIG-A/37401-2-FM                                             Page 29
We considered these material instances of noncompliance when attempting to opine
on whether the AARCC’s fiscal year 1997 financial statements were presented
fairly, in all material respects, in conformity with the applicable accounting
standards now in effect for the preparation of financial statements. Because we
were unable to extend our auditing procedures to satisfy ourselves regarding the
affect these material instances of noncompliance might have on the AARCC’s
financial statements, as well as other issues discussed in our report, we were
unable to, and did not, express an opinion on the financial statements.




ROGER C. VIADERO
Inspector General

July 31, 1998




USDA/OIG-A/37401-2-FM                                                   Page 30
                        EXHIBIT A - ABBREVIATIONS



     AARCC                   Alternative Agricultural Research and
                              Commercialization Corporation
     Board                   Board of Directors
     CAS                     Central Accounting System
     CFO Act                 Chief Financial Officers Act
     Committee               Due Diligence Committee
     CPA                     Certified Public Accountant
     DCIA                    Debt Collection Improvement Act
     DR                      Departmental Regulation
     FACT Act                Food, Agriculture, Conservation and Trade Act
     FAIR Act                Federal Agricultural Improvement and
                               Reform Act
     FFMIA                   Federal Financial Management Improvement Act
     FFMRS                   Federal Financial Management Systems Requirements
     FMFIA                   Federal Managers’ Financial Integrity Act
     GAGAS                   generally accepted Government auditing standards
     GPRA                    Government Performance and Results Act
     OCFO                    Office of the Chief Financial Officer
     NFC                     National Finance Center
     OGC                     Office of the General Counsel
     OMB                     Office of Management and Budget
     SBIC                    Small Business Investment Company
     TOP                     Treasury Offset Program
     USDA                    U.S. Department of Agriculture




USDA/OIG-A/37401-2-FM                                                 Page 31













